Ti

Q@OCKLE

Brief E-Mail Address:
L © 8 a l s contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1108
DERAY MCKESSON,
Petitioner,
v.
JOHN DOE,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF FIRST AMENDMENT SCHOLARS AS AMICI
CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Tabatha Abu El-Haj Hyland Hunt
Thomas R. Kline School Counsel of Record
of Law, Drexel University Ruthanne M. Deutsch
3320 Market Street DEUTSCH HUNT PLLC
Philadelphia, PA 19104 300 New Jersey Ave. NW
Suite 900
Timothy Zick Washington, DC 20001
William & Mary (202) 868-6915
Law School hhunt@deutschhunt.com

613 South Henry Street
Williamsburg, VA 23185

Subscribed and sworn to before me this 9th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Bess? Ondoaw he Chi

Notary Public Affiant

 

 
 

 
     
   
    
 

Attorneys for Petitioner

David Thomas Goldberg
Counsel of Record

Party name: DeRay McKesson

Attorneys for Respondent

Donna U. Grodner
Counsel of Record

Party name: John Doe

    
  
   
 
   

Donahue, Goldberg, Weaver & Littleton 212-334-8813
109 South Fifth Street, Suite 4201
Brooklyn, NY 11249

david@donahuegoldberg.com

Grodner Law Firm 225-769-1919
2223 Quail Run Drive
Baton Rouge, LA 70808

dgrodner@grodnerlaw.com

 
